E-Mail Address: 1115 H Street, N.E.

Ea ea! briefs@wilsonepes.com Washington, D.C. 20002
WSN ih RNG Web Site: Tel (202) 789-0096
exces www.wilsonepes.com Fax (202) 842-4896
No. 20-1434

LESLIE RUTLEDGE, in her official capacity as
Attorney General of the State of Arkansas, et al.,

Petitioners,
v.

LirrLe ROCK FAMILY PLANNING SERVICES, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on July 18, 2021, three (3) copies of the REPLY BRIEF FOR
PETITIONERS in the above-captioned case were served, as required by U.S. Supreme Court
Rule 29.5(c), on the following:

KENDALL TURNER MAITHREYI RATAKONDA
O'MELVENY AND MyErs LLP PLANNED PARENTHOOD FEDERATION
1625 Eye Street NW OF AMERICA
Washington, DC 20006 123 William Street, 9th Floor
(202) 383-5204 New York, NY 10038
Counsel for Little Rock Family Planning (212) 261-4405
Services and Thomas Tvedten Counsel for Planned Parenthood of Arkansas

& Eastern Oklahoma, d/b/a Planned
Parenthood of Great Plains, and Stephanie Ho

BETTINA BROWNSTEIN

BETTINA E, BROWNSTEIN LAW FIRM
904 West 2nd Street, Suite 2

Little Rock, AR 72201

(501) 920-1764

Counsel for Planned Parenthood of Arkansas
& Eastern Oklahoma, d/b/a Planned
Parenthood of Great Plains, and Stephanie Ho

The following email addresses have also been served electronically:

nicholas.bronni@arkansasag.gov
kendallturner@omm.com
bettinabrownstein@gmail.com

mai.ratakonda@ppfa.org
2. Wb

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 18th day of July 2021,

 

NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
